Supreme Court, U.S.
FILED

20-844 3

JUN 0 9 2021

No.

OFFICE OF THE CLEFtK

IN THE
SUPREME COURT OF THE UNITED STATES

BRIAN KEITH GORHAM

— PETITIONER

(Your Name)
vs.
BOBBY LUMPKIN,DIRECTOR,TDC4,FgpnMnFMTm
ON PETITION FOR A WRIT OF CERTIORARI TO

Court of Appeals for the Fifth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

BRIAN KEITH GORHAM #01998550
(Your Name)

2665 PRISON RD 1
(Address)
Lovelady, Texas

75851

(City, State, Zip Code)
n/a
(Phone Number)

s'

' ■' \

M Ui.-M; g
Cv,

$

a— n \n; !

n
■t

:\i\.‘ i i. u ; L-:
\ :j S, \ __
■j \&! tJ Wl l.

QUESTION(S) PRESENTED

Gorham will present three brief statements with three concise ques­
tions for this Honorable Court's review.
Gorham alleged multiple Sixth Amendment rights violations: first, the
right to "an impartial [and legitimate] jury[:]" Because one juror,
through deceit on voir dire, had gained a seat on the jury, though be­
cause of past and present criminal entanglements-even as the jury was
seated he was facing revocation of probation and a ten year prison sentence-for crimes including those of moral turpitude (i.e., aggravated
assault with a deadly weapon against a woman and child), who was cate­
gorically absolutely disqualified from jury service by constitutional as
well as statutory law, had been erroneously empanelled; second, his right
to an impartial jury was again violated, when the Court, upon learning
of this error, in blatant violation of established .law, disregarded the
implied bias which the situation presented, maintained him on Gorham's
jury and moved his trial forward rather than dismissing the disqualified
juror and sua sponte declaring a mistrial; and third, the right to eff­
ective assistance of counsel during direct appeal, when appellate counsel
failed to raise the Court's abuse of discretion for not sua sponte call­
ing a mistrial. Gorham was then illegally convicted by a jury of ill­
egitimate composition- eleven qualified and one absolutely disqualified
jurors. The bias implied when an unqualified juror is empanelled impugns
all confidence in a fair trial and a just result. In finding that Gorham
had failed to show a valid claim of the denial of a constitutional right,
the Fifth Circuit relied upon the standard promulgated in Slack v.
McDonal,529 U.S. 473,484(2000),but wholly misapplied it to Gorham's case.
This case presents the following questions
Did the Fifth Circuit err in finding that no prejudice towards Gorham
emanated from the bias implied by an absolutely unqualified juror being
seated onbhis jury; from the Court's abuse of discretion in not sua sponte
dismissing said unqualified juror and declaring a mistrial; and , from
appellate counsel's failure to address the Court's abuse of discretion
in this matter at that venue?

i

QUESTIONS PRESENTED
Gorham alleged that his trial counsel was ineffective for, a) opening
the door to testimony accusing him of domestic violence and abusive
behavior, b) opening the door to the introduction of testimony of past
criminal history, and c) eliciting inadmissible testimony from an ex­
pert witness attesting to the truthfulness of the complainant. Gorham
was covicted in large part, by the taint this left upon his already
illegitimate jury. Counsel's errors unecessarily exposed the jury, as
Justice Keel agreed, to testimony that was extraordinarily damaging to
Gorham's character, and to prejudicial effect. In finding that Gorham
had failed to show a valid claim of the denial of a constitutional right,
the Fifth Circuit relied upon the standard set forth in Slack v. McDonald,
529 U.S. 473,484(2000), but grossly misapplied it to Gorham s case.
The case thus presents the following question.
Did the fifth Circuit err in finding that Gorham had not been pre­
judiced by his attorney opening the door to the character damaging tes­
timony of alleged family violence, abuse and otherwise neglectful or
ciminal behavior and did they, likewise, err in finding that Gorham
had not been prejudiced when his attorney had elicited- from an expertinadmissible testimony in which this expert declared his accuser to
be believed as absolutely truthful?
Using a habeas applcation form, dated 01/14/14, Gorham submitted his
11.07; it was duly accepted by the court. Gorham then filed a supple­
mental ground (#11) to his application, but this single additional gr­
ound he submitted on plain paper rather than on the prescribed application
form. Because there is a poverty of written instruction (clear or
otherwise) regarding the submission of additional ground to supplement
or otherwise amend an application which has been accepted by the court,
but not yet decided, Gorham did not understand the expectation that he,
in order to effect the additionabf another ground, resubmit his appli­
cation in its entirity (including the additional ground) on the pre­
scribed form. That the 175th Dist. Court likewise did not understand
this became demonstratedly clear when theyaaccepted Gorham's supp­
lemental ground-on plain paper- and answered it on its merits. The
actions of the 175th in this matter clearly demonstrates that this rule
is not clear, and a plethora of court decisions on similar matters stren-

if

t

uously suggest that neither is it firmly established. Time barring
further action from Gorham then was a simple matter of procedural pl­
oys. This case thus presents the following questions.
Did the Fifth Circuit err
relief > solely because he
is so ambiguous that even
rehend it; that Gorham is
to consider an undeniably
structural constitutional

in finding, that Gorham is not entitled
failed .to comply with a procedural rule
the courts themselves seem not to fully
time barred; and that the Court is more
ambiguous procedural rule rather than a
error?

«* *

l i f

to
that
app­
apt

LIST OF PARTIES

Be ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
) State v. Gorham,2012-CR-10383 (175th Dist.Ct.,Bexar Co.,Tex.April 17,
2015).
• Gorham v. State, No.04-15-00305-CR (Tex.App.-San Antonio,February
11,2016, no pet.).
• Ex parte Gorham, No.84,647-02 (Tex.Crim.App.) Judgment entered May
3,2017.
• Ex parte Gorham, No.84,647-03 (Tex.Crim.App.) Judgment entered June
5,2019
• Gorham v. Davis, No.5:19-CV-00743 U.S.District Court for the Westerns
District of Texas. Judgment entered Nov.25,2019.
• Gorham v. Lumpkin, No.19-51188, U.S.Court of Appeals for the Fifth
Circuit. Judgment entered March 2,2021.

w

!

V
TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT

16
35

CONCLUSION

INDEX TO APPENDICES

APPENDIX A Decision of the Stat& Trial Court
APPENDIX B

Decision of State Court of Appeals

APPENDIX C

Decision of the State Supreme Court Denying Review

APPENDIX D

Decison of the State Supreme Court Denying Review

APPENDIX E

Decision of the USDC Denying §2254

APPENDIX F

Decision of the 5th Circuit Denying Certificate of
Appealability

\r.

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER
18

Almanza v. State, 585 S.W.3d 585 (Tex.App.-Waco 2017)
Artuz v. Bennett ’ 531 U.S. 4 (2000) .............. .......................
32
Balisteri v. Pacific Police Dept.,90lF.2d696(9thCir.1988)
33
Banjos v. Ayers,614 F.3d 964(9th Cir.2010) ........................
34
Brackens v. Davis,2018 U.S.Dist.LX 161271........ ............. ..
34
Brooks v. Dretke,418 F.3d 430(5thCir.2005) ..........................
20,22
Brown v. Dretke,419 F.3d 365(5thCir2005)................................
23
Brown v. Lee,319 F.3d 162 (4thCir.2003) ..............................
34
Butler v. State,830 S.W.2d 125(Tex.Crim.App.1992) ............
16,21
Camacho v. State,864 S.W.2d 524(Tex.Crim.App.1993)............
19,20
Chapman v. California, 386 U.S. 18(1967) ............................
19
DeBlanc v. State,799 S.W.2d 701(Tex.Crim.App.1990).......
21
Del Vecchio v. Illinois Dept.of Corr.,31IF.3d 1363 (7thCir.l994).... 32
Doddy v. Oxy USA,Inc., 101 F.3d 448(5thCir.l996)................
25
Duggar v. Adams, 489 U.S. 401 (1989)........................................
32
Ex parte Gorham, No.84,647-02(Tex.Crim.App.2017)................
6
Ex parte Gorham, No.84,647-03(Tex.Crim.App.2017) ..............
6
Ex parte Menchaca, 854 S.W.2d 797 (Tex.App.-Amarillol991)
27
* * *CONTINUED ON NEXT PAGE*****
STATUTES AND RULES
28 U.S.C §2244(d) ............................................................ .............
28 U.S.C. §2254 ................................................................................
28 U.S.C. §2254 Rule 2-3 ..............................................................
Fed.R.Evid. 104(a); 702.............................. ...................................

OTHER

V\

6
6,22,30
30
26

TABLE OF AUTHORITIES CITED CONT...
Ex parte Smith,817 S.W.2d 797(Tex.App.-Amarillol991) .............. 17,18,20
Ford v. Georgia, 498 U.S. 411 (1991) ..............................................
29
Forgy v. Norris, 64 F.3d 399(8th Cir.1995) ................................
32
Franklin v. Anderson 267 F.Supp.2d 768(S.D.0hio) ....................
22
Franklin v. State 138 S.W.3d 351 (Tex.Crim.App.2004)................
19,21
Gorham v. Lumpkin, No.19-51188(5thCir.2021) ................................
6
Gorham v. State, No.04-15-00305-CR(175thDist.Ct.,Bexar Co.TX)
6
Green v. White,232 F.3d 671(9th Cir.2000)......................................
22
Guidroz v. Lynaugh,852 F.2d 832 (5thCir.1988)..............................
30
Haines v. Kerner, 404 U.S. 519 (1972) ............................................
29
Hernandez v. Thaler, 630 F.3d 420 (5th Cir.2011) ......................
29
In R.R.E. Glenn, 884 S.W.2d 189 (Tex.App.-Ft.Worth 1994)........
16,20
James v. Kentucky, 466 U.S. 341 (1984) ..........................................
29
Johnson v. Onion,761 F.2d 224(5th Cir.1985) ................................
30
Jones v. Stephens, 541 Fed.App'x 499(5th 2013)............................
31
King v. Roe, 340 F.3d 821 (9th Cir. 2003)
............ ...................
34
Kumho Tire Co., v. Carmichael, 526 U.S.137(1992) ......................
26
Larry v. Dretke,361 F.3d 890 (5thCir.2004) ..................................
32
Lee v. Kemna, 534 U.S. 362 (2002) ..................................................
28
Lopez v. Schiro, 491 F.3d 1029(9th Cir.2007) ..............................
33
Lyons v tycCotter,770 F.2d 529(5th Cir. 1985) ............ .................
26
Marin v. State, 851 S.W.2d 275(Tex.Crim.App.1993)..................
18,20
Mayo v. State, 971 S.W.2d 464 (Tex.App.-Ft.Worthl998) ........
20
McDonough Power Equip.,Inc. v. Greenwood, 464 U.S.548(1984)
19
Meadows v. State, 455 S.W.3d 166 (Tex.Crim.App.2015) ..........
27
Moore v. Hdhnson, 194 F.3d 586 (5th Cir. 1999) ......................
26
Mullaney v. Wilbur, 421 U.S. 684 (1975) ....................................
31
Neder v. United States, 527 U.S. 1 (1999) ................................
23
Powell v. Alabama, 287 U.S. 45 (1932) .................. .....................
19
Prihoda v. McCaughtry, 910 F.2d 1379(7thCir.1990) ................
34
Proffit v. Waldron, 831 F.2d 1245 (5th Cir. 1987) ................
26
Robertson v. State,187 S.W.3d 475(Tex.Crim.App.2006) ..........
24
Sampson v. United States,724 F.3d 150 (1st Cir.2013) ........
21
Sandoval v. State,409 S.W.3d 291(Tex.App.iiTAustin2013)..........
25
Slack v. McDonald, 529 U.S. 473(2000)..........................................
16,28
State v. Gorham, No.04-15-00305-CR)Tex.App.-San Antonio,Feb.11,'16)...6
State v. Gutierrez, 541 SwW.3d 91(Tex.Crim.App.2017)
19
Thomas v. State, 796 S.W.2d 196(Tex.Crim.App.1990)..
21
U.S. v. Binder, 769 F.2d 595 (9th Cir.1985)................
21
U.S. v. Godfrey, 787 F.3d 72(lst Cir.2015)..................
21
U.S. v. Scop, 856 F.2d 5(2nd Cir. 1988) ......................
28
U.S. v. Sharpe, 513 Fed.App'x. 232 (3rd Cir.2013)
21
U.S. v. Torres, 128 F.3d 38 (2nd Cir.1997)..................
22
Villegas v. Johnson, 184 FG3d 467 (5th Cir.1999)....
32
Viterbo v. Dow Chem., 826 F.2d 420 (5th Cir.1987) ..
25
Wilson v. Foti, 832 F.2d 891 (5th Cir.1987)................
30
Wood v. Hall, 130 F.3d 373 (9th Cir.1997)....................
34

\l\{

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix JL
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ^ is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

E

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
FPI is unpublished.
[ x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
_ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the Fourth Ir.Cour t eo £ o&ppe&l-S'.
appears at Appendix_P_to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
fcj is unpublished.
1.

court

to

[X] For cases from state courts cont.:
The opinion of the 175th District Court.,Bexar Co.,Tex. appears
at Appendix
A
to the petition and is
[ ] reported at
; °r,
[ ] has been designated for publication but is not yet reported;or,
[x] is unpublished

2.

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 02, 2021
[ xl No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

kJ For cases from state courts:
The date on which the highest state court decided my case was 06/05/2019
A copy of that decision appears at Appendix S._____
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

3.

w

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved
in this case.
U.S. CONST.,AMEND.VI
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have •
been previously ascertained by law, and to be informed of hte nautre
and cause of the accusation; to be confronted with the witnesses against
him;to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defence.
U.S. CONST.,AMEND.XIV
Section 1. All persons born or naturalized in the.United States, and
subject to the jurisdiction thereof,are citizens of the United States
and of the State wherein they reside. No State..shall make or enforce
any law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law;nor deny to any per­
son within its jurisdiction the equal protection of the laws'.
28 U.S.C. §2253
(a) In a habeas corpus proceeding or a proceeding under section 2255
before a district judge, the final order shall be subject to review,
on appeal, by'the court of appeals for the circuit in which the pro­
ceeding is held.
(b) There shall be no right of appeal from a final order in a proceed­
ing to test the validity of a warrant to remove to another district or
place for commitment or trial a person .charged with a criminal offense
against the United States, or to test the validity of such person's de*
tention pending removal proceedings.
(1) Unless a circuit justice or judge issues a certificate of
(c)
appealability, an appeal may not be taken to the court of app­
eals from
(A) the final order in a habeas corpus proceeding in which the de­
tention complained of arises out of a process issued by a State
court; or
4.

{

(B) the final order in a proceeding under section 2255
(2) A certificate of appealability may issue under paragraph (1)
only if the applicant has made a substantial showing of the
denial of a constitutional right.
(3) The certificate of appealability under paragraph (1) shall in­
dicate which specific issue or issues satisfy the showing re­
quired by paragraph (2).

5.

\

5

STATEMENT OF THE CASE
Mr.Brian Gorham ("Gorham") was charged and convicted in State v.
Gorham,No.2012-CR-10383 (175th Dist.Ct.,Bexar Co.,Tex.April 17,2015).
Gorham was sentenced to life and appealed to the Texas Fourth Court of
Appeals represented by appellate attorney Andrew Fletcher ("Fletcher"),
Gorham's conviction was affirmed on direct appeal and his motion for
rehearing was denied on February 11,2016. Gorham v. State,No.04-1500305-CR(Tex.App.-San Antonio,Feb.11,2016,no pet.).
Gorham,pro se and a layman and untrained in any aspect of the law,
strenuously labored in preparing and researching his state habeas corpus
challenging his conviction and sentence, filed on October 27,2016,which
was ultimately dismissed by the Texas Court of Criminal Appeals ("CCA")
on May 3,2017, for failing to comply with the Texas Rules of Appellate
Procedure ("TRAP"). Ex parte Gorham,No.84,647-02(Tex.Crim.App.). Twelve
days later Gorham resubmitted his "Supplemented" 11.07 arguing the exact
same grounds,which was subsequently denied without written order on
June 5, 2019. Ex parte Gorham,No.84,647-03(Tex.Crim.App.). Sixteen days
later Gorham mailed in his Federal habeas petition.
On November 25,2019 U.S.Dist.Judge Orlando Garcia DENIED Gorham's
§2254 stating "...barred by the statute of limitations set forth in 28
U.S.C.§2244(d). On March 26,2020 Gorham appealed this procedural de­
cision (no ruling on grounds) to the 5th Circuit, Gorham v. Lumpkin,
No.19-51188(5th Cir.) that was also DENIED on March 2,2021 stating in
pertinent "Gorham has failed to make the requisite showing." Gorham
timely files this Writ of Certiorari ("W0C") to this Honorable Supreme
Court of the United States.
Jury Sworn and Impaneled Prior to Start of Testimony.
On February 24,2015 a jury of twelve was selected,sworn (panel and
juror oath) and impaneled in Cause No.2012-CR-10383 (175th,San Antonio
Texas). The same day after the jury was dismissed,juror number 12 Francis
Achebe ("Achebe") was arrested on a Motion to Revoke ("MTR") blue warrant.
This warrant was based on a 2007 conviction out of Bexar County, Texas
that Achebe pled guilty to Aggravated Assault with a Deadly Weapon
(against woman and child). Achebe was placed on probation for 10 years
on January 12, 2009, and he violated his Felony Probation.
6.

On February 25,2015,Achebe somehow bailed out of jail and returned
to jury duty. This is relevant because typically on a "blue warrant"
there is no bail, and this is highly suspicious as he was "SATISFACT­
ORILY" terminated off probation less, than two months later.(see EX"FF").2
At this point ADA Alexander ("Alexander") and trial attorney Rolando
Garcia ("Garcia") had already discussed any options available and then
informed Honorable M.Roman ("Hon. Roman") about this "situation. "r'Gorham
was not informed by Garcia of all options available,just, if Gorham wan­
ted to go forward with eleven jurors. Gorham was advised to decline
using eleven jurors. Hon.Roman decided to take a recess to allow her
legal team to research the laws that are applicable in this "situa­
tion." After the recess, the court holds a hearing so both sides can
question this juror. The following questioning and testimony is had in
gjertinent part (see 3RR6,16-21; 7,11-12 ; 8,1-22) :
THE- COURT: Anything we need to cover? MR.ALEXANDER: Yeah,I need
to develop the record for it, Judge. But I'm going to be arguing he's
disabled under 36.29. And that the Court then has the discretion to
go forward over defense counsel's objection with 11; THE COURT:
Achebe. We need to ask some questions. We understand that you were
at the Municipal Court, you were paying tickets,and you were arr-,
ested. THE VENIREPERSON: Yes. THE COURT: You are now out on bond
is that correct? THE VENIREPERSON: Yes,Ma'am. THE COURT: It appears
that you are on probation for aggravated assault with a deadly wea­
pon,^ that correct, out of 379th? THE VENIREPERSON: Yes, Ma'am. TlHE
COURT: There is a motion to enter adjudication, which means,basically
that there are some allegations of infractions. And are there any
allegations of No.1's which is another crime? THE VENIREPERSON: No
Ma'am. THE COURT: They're all technicals then is that correct? THE
VENIREPERSON: Yes Ma'am,correct. THE COURT: Failure to report?
THE VENIREPERSON: No it was actually marijuana I came under— THE
COURT: Paying your fees and fines, is that what you're saying? THE
VENIREPERSON: No. THE COURT: What is it? THE VENIREPERSON: They
did a urinalysis and they said that I had a certain amount of mari­
juana. THE COURT: A positive UA THE VENIREPERSON: Yes Ma'am THE
COURT: Anything else? we call that a No.2 allegation okay...;MR.
ALEXANDER: Mr.Achebe, I'm trying to figure out where to start here.
I guess let's start with the case your on probation for. It's 2004CR-9090,right? THE VENIREPERSON: Yes,Sir. MR.ALEXANDER:
I did a
little research on the case. It's for aggravated assault with a deadly
weapon; is that right? THE VENIREPERSON: Alleged. MR.ALEXANDER: The
alleged facts,right, a woman claimed that you came to her home with
2 Reporter's Record will be referred as, volume-RR-page number-lines,
y
i.e., 3RR12,16-21. Exhibits will be posed as EX"

7.

a shotgun,correct,and that you pointed it at her and/or her child­
ren because someone owed you something right,like you needed something back? THE VENIREPERSON: That's their story. I never- MR.
ALEXANDER: And again, it's alleged that you were threatening to sh­
oot someone and you departed the scene.
Garcia objects (see 3RR9,23-25;10,1-3):
MR.GARCIA: Your Honor, I'm going to object to this line of ques­
tioning. And the issues should be restricted to whether Mr.Achebe
can be fair and impartial. And you know just developing the record
to--in an inflammatory manner is highly objectionable.
Achebe had previous encounters with the law and the court system
including marijuana posession,driving while license invalid,criminal
mischief $1500.00-$20,000.00, and aggravated assault with a deadly
weapon to name a few. (See EX"BB").V Achebe has been caught lying to the
judge twice about why he was arrested, lied on his juror card (see
EX"AA"), lied taking the panel and juror oath,and now he'll be caught
again during Alexander's questioning (3RR12,8-25;13,1-10) in part:
MR.ALEXANDER: Do you remember downstairs yesterday being placed un*> (
der oath by the presiding Judge-- THE VENIREPERSON: Yes,Sir. MR.
ALEXANDER: --swearing to tell the truth? THE VENIREPERSON: Yes,
Sir. MR.ALEXANDER: Do you remember filling out your juror card?
THE VENIREPERSON: Yes,Sir. MR.ALEXANDER: This is your card isn't
it? THE VENIREPERSON: Yes. MR.ALEXANDER: Do you see this line here,
have you ever been accused,complainant or a witness3 in a criminal
case? THE VENIREPERSON: Yes. MR.ALEXANDER: And you filled this out?
THE VENIREPERSON: Uh-huh. MR.ALEXANDER: What box is checked off?
THE VENIREPERSON:
I put no there. MR.ALEXANDER: You've been accused
nine different times. THE VENIREPERSON: Never convicted. MR.
ALEXANDER: But listen to my words. You have been accused?3 THE
VENIREPERSON: Yes.
Alexander speaking to the court (3RR 14,14-25;15,1-4):
MR.ALEXANDER: And Judge, I m going to ask the court, one,to take
judicial notice of essential jury room proceedings as the Court has
presided over it as well, and the oath that is administered. I'm
also going to be offering---- i'll show it to defense counsel--Mr.
Achebe's juror card as Exhibit No. A, his criminal history report
for the D.A.'s office judicial dialogue software as Exhibit B, and
his motion to enter adjudication of guilt and revoke his community
supervision that's currently active3 out of the 379th District
Court under Cause No.2004-CR-9090 as Exhibit C. MR.GARCIA: No objec­
tion. MR.ALEXANDER: And ask that they be entered into the record
for purposes of appellate review.3
3 my emphasis throughout,i.e., absolutely disqualified3

8.

t

Alexander doesn't dare ask for a mistrial at this point,but instead
he tries to pursuade the 175th that Achebe is "disabled."(3RR18,13-25):
MR.ALEXANDER: I think he's clearly demonstrated that his condition
of being an active defendant in our jurisdiction makes him unable
to fully and fairly perform his function as a juror. And the Court
has discretion and actually, let me poin--before I go there--let me
point the Court to another case which is Reyes v. State and this is
30SW3d409. Now that case is on point because it talks about jurors
being disabled because of their situation. This is also out of the
Court of Criminal Appeals. Mr. Achebe because of his situtation,
because of being a probationer supervised in this county, I believe
is disabled.
Alexander continues his attempt to mislead the 175th. He even gives her
the standard of review.(3RR19-20):
Also,because of his situation of being untruthful during the voir
dire process has made him disabled. Now, Judge you have discretion
in this matter as to whether or not to declare him disabled. And
that was given to> us by the Court of Criminal Appeals under Scales
v. State. And that would be 380 S.W. 3d 780. THE COURT: 3'80? MR.
ALEXANDER: Yes,ma'am. S.W.3d 780. It's a 2012 case. And that one-what's important about that, not only does it tell you that you
have discretion in these matter, but also the standard of review
upon appeal3 is abuse of discretion, which the Court is aware is a
very forgiving standard. Because the appellate court realizes that's
there's no one in a better situation to assess this individual in
a situation than the trial court that was watching it happen. As a
backup, Judge, if you don't believe he's disabled, which I think he
is, I think he can also be excused because of implied bias3. Now,
he says he can be fair and impartial, but I don't really think he
can. Now there have been cases that have gone through, not only the
Court of Criminal Appeals, which would be you Uranga v. State, which
is 330 S.W.3d 301. There has also been several that's gone through
the Fifth Circuit, Hatton v. Quarterman3 at 570 F.3d 595, And I won't
bore you with the rest. But essentially, these are situations in
which the Court was able to determine that a person had an implied
bias. An example would be, an assistant district attorney on the
panel, who gives all the right answers, and responds that,yes,I can
be fair and impartial despite my employment. But the Court can and
has found that because of this person's employment, because of their
situation, they have an implied bias to go for a conviction. And I
thin,by analogy,although normally argued by the defense, I think
that's kind of what we have here too. Because he's actively being
prosecuted in this jurisdiction by the district attorney'sRegard­
less of his answers,he has an implied inherent bias. THE COURT: You
have the cases on implied bias? MR.ALEXANDER: Actually, I have a
little printout here Judge. There's a Fifth Circuit,Ninth Circuit.
There's a cite to the U.S.Supreme Court, as well. And I also do have
--although I have. . .
Garcia requests a recess (3RR21) so that he can do his own re­
search. The judge allows the continuance and is contemplating the time
9.

that she wants everyone back (see 3RR22). The court excuses the jury
untill 3:30 (3RR23). The 175th wants to hear from Garcia about what he
figured out during his continuence. Garcia does not lie, he tell the
judge exactly and only the truth, that Achebe is not "disabled"3 (3RR26
1-6,18-22):
. . .position is the same position. It hasn't changed over the lunch
hour. We feel that in order to disqualify or to classify a juror as
disabled a juror has to be suffering from a physical illness, mental
condition and emotional state that hinders his ability to perform...
And based on the fact that the State wasn't able to establish that
he had any condition that would impair his ability to serve as a jur­
or, the defense maintains that he should be--that he should continue
as a participating member of this jury.
Here is where Alexander tries to sway the court into believing his
arguement is valid (3RR27;28,1-11):
MR.ALEXANDER: Again,I am going to reurge the point. The Court of
Criminal Appeals stated in the Hill case,that disabled means any
condition--any condition that inhibits a juror from fully and fairly
performing the function of a juror. Not despite what his words are
--and by the way, Judge,you have the discretion not to believe him.
But no matter what he stated on the record, he is being--because of
his situation, he is being actively prosecuted by the same office
that I am employed by in this jurisdiction for a 3G felony offense.
It is not his first time in court. It is not even his first criminal
allegation.
The fact that he has demonstrated his inability to follow his oath,
just to tell the truth3 by,frankly, lying on his juror card3 I think
shows that he is not able to fully and fairly carry out his role as
a juror. And I think he's disabled because of that,because of the
situation he has put himself in, not only through his criminal con­
duct, but through his being less than forthcoming during the jury
selection processT3 THE COURT: The problem remains that he has stated
that he can be fair and impartial despite everything that you brought
out, despite the fact that he's on probation, despite the fact that
there's a motion to enter. Ahd I just don't see how-- MR.ALEXANDER:
I would also argue that he's inherently biased on his situation and
is therefore disqualified. THE COURT: Well,we have done our very
best to research everything that we can,and I am convinced that I
have not been able to overcome that hurdle. And so I'm going to allow
him to stay on the jury.
Hon.Judge Roman has just allowed an absolutely disqualified juror to
remain on Gorham's jury; instead of calling a mistrial under manifest
necessity. The records are crystal clear, it could not get any clearer,
Achebe lied, verifiable lies totaling eleven times. Achebe has been con­
victed of Aggravated Assault with a Deadly Weapon, a high crime, a 3G
offense against a woman and her child, making it a crime of moral tur­
pitude .
10.

Trial on the Merits During Guilt/Innocence
During cross-examination of B.Stockford (complainant's mother) Garcia
deliberately opened the door to inadmissible evidence by going into
specific acts of misconduct, not relevant to the charge.
Garcia opened the door and let the jury hear inadmissible evidence
of (alleged) domestic violence,child abuse/neglect, only making Gorham
appear like an unfit parent, an unsupporting fiance', when in reality
it was quite the opposite.
Garcia opened the door by introducing a police report that was su­
pposedly going to reveal Stockford's retalitory motive in fabricating
allegations against Gorham. Alexander seen an opening and attacked ad­
mitting damaging evidence that went unrebutted.
This is what transpired in pertinent (4RR96-97):
MR.ALEXANDER: Your Honor,I think due to counsel's last line of
questioning, I think he has opened the door into specific instances
of misconduct between this defendant and this witness, and I'l like
to go into it at this point, (hearing outside presence of the jury).
MR.ALEXANDER: Sure,Judge. I believe based on counsel's last line
of questioning during cross-examination,where he was,I'm assuming,
attempting to impeach this witness with a purported prior act of
misconduct,this threat that he talked about, I believe he's now op­
ened the door for me to be able to go into specific acts of miscon­
duct committed by/this defendant against this witness.
The 175th allows Alexander to continue questioning Stockford.(See
4RR97-99). From the objective record, Garcia during his attempted
impeachment of Stockford, also known as the outcry witness clearly op
opened the door to specific acts of conduct inadmissible by Tex.Rules
of Evidence ("TRE") 608(b),403 and 404(a)-(b). Garcia tries to justify
his reasoning, but the court agrees with Alexander and allows him to
proceed, (see 4RR100,13-20):
MR.GARCIA: Your Honor, I think we're going outside 6f.oseopeo.404(b)
for prior acts. I think it was related to the offense report. MR.
ALEXANDER: Actually,Judge, this also goes into the door that I believe he opened while cross-examining the complainant. His specific
question was about how this defendant treated her. THE COURT: You
may proceed.
Garcia opened this door by mistake violating TRE 608(b). Inadmissible
under 404(a) Gorham was never convicted or even charged with a crime,
the outcry witness, Mother of the complainant, ex-fiance who had been
recently asked to move out of Gorham's home, has every motive to be un­
truthful and to mislead the jury.
11.

Furthermore CPS Investigator Alexandria Lorn (State's Expert witness)
on cross was asked by Garcia (4RR124,20-25;125,9-13):
Q. And,once again,as we're going along the track of your agency
does,you're still functioning or your agency is still functioning
under the assumption that this3 child is telling the truth,correct?
A. Well,we had a valid outcry,sir. Q. (by MR.GARCIA) Are you tell­
ing this jury that when a child makes an automatic outcry-makes an
outcry that that child is telling-you're absolutely sure that child
is telling the truth? A. Yes.
Garcia's questioning regarding the truthfulness of this child con­
tinues . (4RR125) . Alexander requests a bench conference and the 175th
states the following. (4RR126,1-6):
THE COURT: It's not their function to decidedwhether the child is
telling the truth or not. That's not their function. All they do is
a video. They take the information.They have no business trying to
figure out whether
the child is telling the truth and if this infor­
mation from her which is------.
It is all to clear the 175th recognizes that this is a violation of
TRE 702, as it relates to the truthfulness of a witness. A further re­
view of the record will affirm this in pertinent (4RR127,5-18;128,1425) :
MR.GARCIA: But' she just said-and that's what triggers it-that auto­
matically, she said that any child that makes an outcry,is automati­
cally telling the truth. MR.ALEXANDER: Your question was that she
ended up agreeing with you. THE COURT: This is the problem. That
this agency cannot make that assumption,all they do is take the in­
formation. They record. They ask questions as they're supposed to.
But for them to assume that the child is telling the truth is not
their responsibility. So I don't know how you got that answer out
of her,but that is erroneous3, in my opinion. I just have never3heard
that before. Never3. And here s the problem. That response should
never be asked during a trial. A doctor can't say that,neither can
anyone else...MR.GARCIA: But Judge,what if-what if in their mind
they fehl that way,Judge? Because some of the professionals do. THE
COURT: The objection needed to be made. She cannot give that opin­
ion. MR.GARCIA: Okay,that's the second. THE COURT: Can give that
opinion, and that includes doctors.
Prosecutor Alexander took an unorthodox step of asking for a limiting
instruction, something Garcia failed to do. Garcia leaves this in the
minds of the jury during his closing arguments (see 5RR67) "Because you
have the first initial contact, CPS4 they're automatically guilty. You
heard her, "Kids don't lie."
Finally, Gorham is influenced to take the stand. Almost from the
beginning of cross-examination Alexander attacks Gorham's credibility
while testing his integrity, (see 5RR46,2-18):
12.

Q. Well,let me slow you down right there. So April 1998,in the Reno
Township of Nevada, you were convicted for operating a motor vehicle
while intoxicated, were't you? A. If that--yes. Q. Also, in
September of 2001, in Sparks, Nevada, you were convicted for operating
a motot vehicle while intoxicated? A. Correct Q. And also in
December 2004, in East Fork Township, Douglas County,Nevada, you
were convicted of operating a motor vehicle while Intoxicated? A.
Correct Q. And you're even currently under indictment for operating
a motbr vehicle while intoxicated within our jurisdiction, aren't
you? A. Correct.
Garcia never objected one time. Garcia knowing this case is strictly
a he said-she said, and that credibility had everything to do with it.
Alexander purposely violated TRE 609(b) and 404(b) to assasinate Gorham's
charagter and gain a conviction on irrelevant inadmissible evidence.
Gorham*;after having been judged by an illegally composed jury, in
which one absolutely disqualified juror- because he was a convicted
felon,who had a ten year prison sentence hanging over his head for vio­
lating his felony probation-had been impaneled;after having been denied
effective counsel,as his attorney failed to object to the ADA's illegal
impeachment,using crimes over ten years old, and completely irrelevant
to the case being tried,and opening the door to the presentation of
inadmissible evidence of "alleged" misconduct between Gorham and the
complainant's mother,severly damaging his credibility,and eliciting
further inadmissible testimonial evidence from an expert witness, on
fhe truthfulness of the complainant ;and after the StWt’ej 0ff erred neither
DNA nor medical exams or reports,no evidence at all, in fact, excepting
a rather disingenuous fabrication stemming from strife;was found guilty
and Hon.Roman sentenced him to life in prison. Gorham still,and has
continuously maintained his innocence, and by way of this WOC demons
strates his resolve;he will not abandon his expectation of Judicial
Justice.
Post-Conviction Appeal and Writ of Habeas Corpus Proceedings
Gorham timely filed a notice of appeal and was appointed Bexar Co.,
appellate Public Defender Richard Dulany ("Dulany"). Five months after
sentencing and coincidentally the day Dulany turned in Gorham's brief
he was fired. Dulany's brief never was submitted to the Fourth Court
of Appeals. Dulany in a reply email to Gorham's father stated "I was
fired yesterday.Coincidentally I was also going to file Brian's brief
yesterday. I'm going to send you a much more detailed message when I'm
13.

ft

at my computer. It is a bad situation and I will give you some options."
(See EX"DD").
Andrew Fletcher was assigned the case on September 28,2015 and two
days later after "mastering" the record,he files the same one ground
Dulany already prepared. Fletcher files an IAC claim on appeal,knowing
this type of claim on appeal is the hardest to win,most complex and
must be clear by the redord, and no other grounds. Gorham's appeal was
"affirmed" in part because the Fouth Court of Appeals couldn't tell from
the reoord what trial counsel's strategy was. Gorham will reiterate,
Dulany wrote the brief, Fletcher plagiarized the brief and signed it
as if he wrote it and submitted on September 30,2015.
Fletcher's one ground claimed Garcia failed to object to an "Abso­
lute Disqualified" juror preserving error for appeal and that Garcia
lacked legal knowledge, (see Appellant's Brief).
On October 27,2016 after diligently pursuing his right,Gorham properly
filed his state habeas 11.07 containing ten grounds. On November 15,
2016 in a "boiler plate" reply the state denied all allegations gener­
ally .
On November 17,2016 Gorham filed a "Motion to Recuse" trial Judge
Roman who's also the current habeas judge. Gorham's recusal motion was
in compliance with Tex.Rules Civ.Proc (TRCP) 18(a)-(b). Hon.M.Skinner
"Denied" this motion for3 Roman on November 30,2016. On December 5,2016
Hon.Roman issues an "Order Designating Issues" ("ODI") to trial counsel
Garcia and appellate counsel Fletcher.
Gotham then files a "writ of mandamus" on December 27,2017 asking
the Fourth Court of Appeals to comp&i Hon.Roman to comply with the
Rules set out in TRCP 18(a)(f)(1)(A)(B). On January 5,2017 the Appeals
Court dismisses as "Moot" as Roman was succeeded at her post (by TorresStahl).
Gorham then files a "Supplemental Ground3 Eleven to Applicant's 11.07
Writ of Habeas Corpus." on February 21,2017. This ground eleven is
erroneously accepted,considered and answered on it's merits.
On May 3,2017 the CCA "dismissed your application for writ of habeas
corpus without written order for non-compliance with Texas Rules of
Appellate Procedure 73.1. Specifically,applicant's supplemental ground
eleven is not set out on the prescribed form. Gorham did not receive
the dismissal until May 9,2017 and eight days later re-submitted his
14.

second application challenging the same conviction raising the exact
same grounds only incorporating ground 11 in the entire application.
On August 23,2017 the CCA remanded Gorham's 11.07 back to the 175th
to further develop the record. The CCA gave the 175th 120 days to hold
a hearing and have it's FFCL back to them. On November 21,2017 Hon.
Judge Melissa T. Herr,not Hon.Roman,dot Hon.Torres-StahJ.,not Hon.M.
Skinner recommended Gorham's writ be "denied."
On April 18,2018 the CCA re-remanded Gorham's 11.07 to the 175th
compelling her to get Garcia to respond to the allegations. The 175th
for the third time recommended that the CCA deny Gorham's 11.07.
Over a year later on June 5,2019 the CCA denied Gorham's 11.07 with­
out written order. Honorable Justice Keel dissenting and Hon.Justice
Yeary did not participate. Gorham received his denial on June 11,2019
and 13 days later filed his federal writ of habeas corpus.

15.

i

REASONS FOR GRANTING THE PETITION
I. THE FIFTH CIRCUIT ERRED IN ITS APPLICATION OF SLACK V,
MCDONALD WHEN IT DECLARED,"GORHAM HAS FAILED TO MAKE THE
REQUISITE SHOWING,'1 THAT "JURISTS OF REASON WOULD FIND IT
DEBATABLE WHETHER THE PETITION STATES A VALID CLAIM OF THE
denial Of a constitutional rIGhT." This GORHAM Mas shown
MANIFESTLY;THIS FACT WARRANTS THIS COURT'S ATTENTIW7
The Fifth Circuit's opinion misapplied Slack v. McDonald,529U.S.473,
484(2000). First, the Court states "Gorham has failed to make the re­
quisite showing." The Court is saying Gorham's petition does not state
a valid claim of the denial of a constitutional right. In this issue
alone there are three constitutional violations, Ineffective Assistance
of Counsel ("IAC"); Right to trial by impartial jury,and; Abuse of Dis­
cretion ("AOD") on the trial court ("175th"). This is fact and Gorham
will now show this Court he is entitled to relief.
Gorham's right to trial,by an impartial jury did not happen in the
state court. Gorham will start with Texas state cases in urging relief.
Citing the CCA in Butler'v. State,830 S.W.2d 125(Tex.Crim.App.1992),
"this Court in Moore,acknowledged that a trial judge should not Sua
sponte excuse a juror except on grounds of absolute disqualification."
Gorham emphasizes the relevant part of In R.R.E. v. Glenn,884 S.W.2d
189(Tex.App.-Ft.Worth 1994):
"While we make no holding as to the validity of this article, the
effect of our opinion is that a party,whether he be a party to a
civil action or a defendant in a criminal action, has not been aff­
orded his Constitutional rights if the jury composition in his case
includes a person who has been convicted of a felony and has not
been pardoned by the Govenor."
Gorham cites the Texas Code of Criminal Procedure ("TCCP"):
Art. 35.19 Absolute Disqualification
No juror shall be impaneled when it appears that he is subject to the
second,third or fourth cause of challenge in Article 35.16, though both
parties.may consent.
Art. 35.16 Reasons for
Challenge for Cause
(a) A challenge for cause is an objection made to a particular juror,
alleging some fact which renders the juror incapable or unfit to serve
on the jury. A challenge for cause may be made by either the state or
the defense for any one of the following reasons (in pertinent):
16.

2. That the juror has been convicted of misdemeanor theft or a felony3;
3. That the juror is under indictment or other legal accusation3 for
misdemeanor theft or a felony3;
4. That the jury is insane;
No juror shall be impaneled when it appears that the juror is subject
to the second,third or fourth grounds of challenge for cause set forth
above,although both parties may consent. All other grounds for challenge
may be waived3 by the party or parties in whose favor such grounds of
challenge exist.
Gorham cannot emphasize how close the similarities in his case and
in Ex parte Smith,817 S.W.2d 797(Tex.App.-Amarillo 1991) in relevant:
"Appellant was charged by indictment for the offense of aggravated
robbery. A jury was impaneled and sworn,appellant pleaded notguilty,
and evidence was adduced on the first day of trial. That evening, one
of the jurors contacted appellant's attorney and disclosed that he
had a prior felony and conviction and was currently under indictment
for felony offense. Before the trial resumed the next morning,appellw
ant's attorney informed the court of the juror's disqualifications.
See Tex. Code Crim.Proc.Ann.arts.35.16(a)(2)-(3),35.19 (Vernon 1989).
H The court questioned the juror and, after finding that he was ab­
solutely disqualified, excused the juror. The State moved for a mis­
trial and,although appellant objected and implored the court to pro­
ceed with eleven jurors, the court declared a mistrial, fl In later
denying the habeas corpus relief appellant sought, the court announ­
ced its earlier finding that manifest necessity3 existed for de­
claring the mistrial. Still, the court considered appellant's urging
of the application of the statutory provision for a verdict by eleven
jurors in a felony case when 'one juror may die or be disabled from
sitting at any time before the charge of the court is read to the
jury.' Tex. Code Crim.Proc.Ann.art.36.29(a)(Vernon Supp.1991)._However, the court reasoned that for a juror to be disabled, the juror
must first be "abled"3 or qualified3, but that the excused juror was
absolutely disqualified and never constituted a juror3. Thus reasoning
the court found that jeopardy did not attachjbut,the court further
found that if jeopardy did attach,manifest necessity existed for the
mistrial, fl In Pfeffer v. State,683 S.W.2d 64(Tex.App.-Amarillol984),
pet'n ref'd,687 S.W.2<T"768(Tex.Crim.App.1985),we held,upon settled
authority, that jeopardy attached when the jury was impaneled and
sworn to try the cause) and that once jeopardy attached, defendant
had the right to have his guilt or innocence determined by that jury
unless, in the absence of his consent to a mistrial, a new trial was
mandated by manifest necessity3, such as the absolute disqualification
an impaneled juror. Thus, we conclude that upon discovering an im­
paneled juror was absolutely disqualified because of a misdemeanor
theft conviction,the trial court had no viable alternative other than
to declare a mistrial3even though defendant objected. . .Appellant
does not challenge the holdings in Pfeffer that the_impaneled juror's
absolute disqualification created a manifest necessity for the mistrial
without the attachment of jeopardy; 1HI After a jury was impaneled and
17.

and sworn in Strickland, one juror moved out of the county and,on
it's own motion,the trial court granted a mistrial over defendant's
objection.11 Considering these authorities, the trial court correctly
concluded that the Strickland court's holding in reliance on article
36.29(a) was not applicable to appellant's prosecution, and that the
Tinney court's tacit approval of applying the article 36.29(a) pro­
cedure with defendant's consent was not an acceptable method for pro­
ceeding when an absolutely disqualified juror is erroneously impaneled:!3.
It was determined in Carrillo v. State,597 S.W.2d 769,770-71(Tex.Crim.
App.1980),that the discretion vested by, and to be exercised under,
article 36.29(a) is limited to situations where a (qualified,impaneled)
juror dies or is "disabled from sitting" because of a physical, men­
tal or emotional condition. The limited discretion persists. Landrum
v. State,788 S.W.2d 577,579(Tex.Crim.App.1990). It follows that article 36.29(a) cannot apply to the situation where an impaneled jur­
or is absolutely disqualified because he has been convicted of, or
is under indictment for, any felony. In that situation, neither the
State nor Defendant can consent to waive disqualification,DeBlanc
v. State,799 S.W.2d 701,70/CTex.Crim.App.1990),cert.denied, U.S. ,
ill S.Ct.2912,115 L.Ed.2d 1075-76(1991),for "a new trial shall be—
ordered, without regard to a showing of injury or probable injury or
of consent or waiver." Thomas v. State,796 S.W.2d 196,197-98(Tex.Crim.
App.1990)(quoting Ex parte Bronson,158 Tex.Cr.R.133,254 S.W.2d 117,
121(1952)).
The law says,not Gorham,hot Garcia,not Fletcher, "neither the State
nor the defendant can consent to waive disqualification." Ex parte Smith,
817 S.W.2d 797. Gorham will cite Almanza v. State,585 S.W.3d 585(Tex.
App.-Waco2017):
"To be tried by a jury is a category two right under Marin v. State,
851 S.W.2d 275,280(Tex.Crim.App.1998). It is catergorized as such
because it is a right that must be implemented by the trial court
unless affirmatively waived3. 11 The Fort Worth Court of Appeals has
held that a defendant may raise the issue of whether it is error to
allow a disqualified juror to serve on the jury for the first.time
on appeal." Mayo v. State,971 S.W.2d 464(Tex.App.-Fort Worth 1998).
Gorham cites the relevant parts of Marin v. State,851 S.W.2d 275,280
(Tex.Crim.App.1993):
"Waivable rights,on the other hand,do not vanish so easily. Al­
though a litigant might give them up and, indeed has a right to do
so,he is never deemed to have done so in fact unless he says so
plainly,freely,and intelligently, sometimes in writing and always
on the record. Goffney v. State,843 S.W.2d 583,585(Tex.Crim.App.1992).
He need make no request at trial for the implementation of such
rights, as the judge has an independent duty to implement them ab­
sent an effective waiver by him. As a consequence, failure of the
judge to implement them at trial is an error3 which might be urged
on appeal whether or not it was first urged in the trial court3. 11
In the instant caus'd the Court of Appeals rightly determined that
article 60.51(e) is waivable only, inasmuch as the Legislature said
so expressly by providing that appointed counsel "may waive the [10
18.

days of] preparation time with the consent of the defendant in writ­
ing or on the record in open court3."
There is a duty required of the 175th when she intends to depart
from constitutional norms. The requirement is typically before3 asking
the parties if they acquies to the procedure. This duty is to provide
a 'full and fair warning' as to the rramifications that waiving a con­
stitutional right must entail. The record is void of asking Gorham any­
thing during this hearing. This Court says in Powell v. Alabama,287
U.S.45,69(1932) "Even the intelligent and educated layman has a small
and sometimes no skill in the science of law. . .He lacks both the skill
and knowledge adequate to prepare his defense,. . ." The 175th and
Garcia had obligatory duties to forewarn Gorham about his 'waiving' a
right to an impartial jury.
The record is clear,Gorham, not Garcia, Gorham never gave up his
right to an impartial jury plainly,freely,intelligently in writing and
definetely not on the record. The 175th never asked Gorham, because she
didn't even realize Achebe was absolutely disqualified, thus, abusing
her discretion violating Gorham's due process and right to impartial
jury. Gorham concludes the state cases and cites State v. Gutierrez,
541 S.W.3d 91(Tex.Crim.App.2017)"Sometimes voir dire can be reopened
to explore a venire member's potential biases, but once the jury is
sworn3, the defendant's only remedy3 for a harmful violation of his right
to an impartial jury is a mistrial3." Franklin v. State,138 S.W.3d 351
(Tex. Crim.A'pp. 2004); Camacho v. State, 864 S.W.2d 524(Tex.Crim.App.l993).
The 175th upon being notified of Achebe's absolute disqualification
should have first3 determined if Achebe failed to answer honestly a
material question on voir dire,(including on his juror card and while
taking both oaths) and that a correct response would have provided a
valid basis for a challenge for cause. McDonough Power Equip.,Inc. V.
Greenwood,464 U.S.548,556(1984). Had she done this first3 the need for
further hearing would be unecessary.
This Court expressed in Chapman v. California,386 U.S.18,21(1967)
"Whether a conviction for a crime should stand when a state has failed
to accord federal constitutionally guaranteed rights is every bit as
much a federal question as what particular federal constitutional pro­
visions mean, what they guarantee,, and whether they have been denied."
This issue should have been GRANTED on state habeas review and the USDC

1! 9.

arid 5th Circuit don't even consider it to be a constitutional violation.
Gorham strongly believes Hon.Roman failed to realize she had an absoluteedisqualified juror on her hands. Hon.Roman held a hearing to de­
termine if Achebe was biased3 not absolutely disqualified. Gorham
couldn't challenge nor strike him, he was already sworn and impaneled.
Juror Achebe stated he can be fair and impartial, and this is what Hon.
Roman based her decision on to keep him on Gorham's panel.(see3RR27).
In Brooks v. Dretke,418 F.3d 430(5thCir.2005) a case precisely on point
to Gorham's stating in applicable part "The determination of implied
bias is an objective legal judgment made as a matter of law and is not
controlled by sincere and credible assurances by the juror that he can
be fair."
If Gorham decided to plead guilty, the Court must3'fully and fairly'
inform him (admonish) him of his rights and what he is actually waiving.
The same goes if he chooses to represent himself atttrial. The issue,
Hon.Romanjnever3 once asked Gorham what he3 wanted'!to do, this was also3
an abase of discretion. The Court in Ex parte Smith,817 S.W.2d797.(Tex.
App.-Amarillo 1991) made it perfectly clear in relevant part "...manifest
necessity existed for declaring the mistrial... the juror must first be
"abled" or qualified, but that the excused juror was absolutely dise
qualified and never constituted a juror...in absence of his consent to
a mistrial, a new trial was mandated by manifest necessity,such as an
absolute disqualification of an impaneled juror...the trial court had
no viable alternative other than to declare a mistrial...neither the
State nor defendant can consent3 to waive diqualification."
Gorham filed IAC on his 11.07 because Fletcher failed to raise
Abuse of Discretion on the 175th and here's Fletcher's reply in app­
licable part (see Fletcher's Affidavit to 11.07):
"Mr.Gorham complains that I should have argued on appeal that the
trial court ought to have sua sponteriremoved an empaneled juror,
Francis Achebe, when it became apparent that he was absolutely dis­
qualified, and not merely disabled. I recognized,but did not raise3,
that issue because I believed the applicant was precluded from raising the claim on direct appeal because the error was invited."
Fletcher was ineffective, says the case law in Ex parte Smith;Mayo
v. State,971 S.W.2d 464(Tex.App.-Ft.Worth 1998);In R.R.E. v. Glenn,884
S.W.2d 189(Tex.App.-Ft.Worth 1994);Marin v. State,851 S.W.2d 275(Tex.
Crim.App.1993);Camacho v. State,864 S.W.2d 524(Tex.Crim.App. 1993);
-20.

Butler v. State,830 S.W.2d 125(Tex.Crim.App.1992);DeBlanc v. State,
799 S.W.2d 701 (Tex.Crim.App.1990);Thomas v. State,796 S.W.2d 196(Tex.
Crim.App.1990) and;Franklin v. State,138 S.W.3d 351(Tex.Crim.App.2004)
were all available to him during the two days he mastered four days
worth of trial transcripts. Fletcher clearly states "I recognized, but
did not raiseythat issue because I believed the applicant was pre­
cluded from raising the claim on direct appeal because it was invited3-"
It is clear,Fletcher's opinion3 was wrong and unreasonable and was not
a fair appeal the result of which is worthy of confidence.
II. THE DECISION OF THE FIFTH CIRCUIT
IS IN CONFLICT WITH THE DECISIONS OF OTHER CIRCUITS.
• United States v. Sharpe,513 Fed.Appx.232(3rdCir.2013):
"To obtain a new trial for false juror testimony, a defendant must
show:(l) that the 'juror failed to answer honestly a material ques­
tion on voir dire';and (2)'that a correct response would have pro­
vided a valid basis for a challenge for cause.' McDonough Power
Equip.,Inc v. Greenwood,464 U.S.548,556,104 S.Ct.845,78 L.Ed.2d 663
(1984). 11 To satisfy the first prong of McDonough,a defendant must
show that the juror's answer was dishonest, as opposed to merely
'mistaken, though honest. I tl McDonough,464 U.S.at555.
Gorham has shown this easily through the statement of the case and
the aforementioned argument. Achebe lied at every stage, juror card,
juror and panel oath and at the re-opening of voir dire. Felony convic­
tion for Aggravated Assault with a Deadly Weapon (against woman and child).
• Sampson v. United States,724 F.3d 150 (IstCir.2013):
"Defendant was deprived of his right to impartial jury and was en­
titled to a new penalty-phase hearing in capital case because of
juror's repeated lies3. . .Few accounterments of our criminal justice
system are either more fundamental or more precious than the accused's
right to an impartial jury..but finality is also valuable, and not
every instance of juror dishonesty requires setting aside a pre­
viously rendered verdict. Concluding, as we do, that we can proceed
to the merits of the juror dishonest claim, we adopt the district
court's finding of fact, articulate the proper legal framework, array
the district court's findings of fact against that framework, and
hold that the defendant's sentence must be set aside and a new
penalty-phase hearing conducted."Id.
Gorham has shown Achebe lied repeatedly. He had a ten year sentence
hanging over his head, Would he jeopardize his freedom for Gorham's?
• U.S. v. Godfrey,787 F.3d 72(lstCir.2015) :
"We review the district court's ruling on a claim of juror bias for
clear abuse of discretion. United States v. Lowe,145 F.3d 45,48(lst
Cir.1998). In assessing juror bias claims, ','the deference due to
district courts is at it's pinnacle:'A trial court's findings of
21.

juror impartiality may be overturned only for manifest error. i ti
Skilling v. U.S.,561 U.S.358,396(2010)(quoting Mu/Minv. Virginia,
500 U.S7415,428(1991)). That being said,the presence of even a
single bias juror requires reversal. See Parker v. Gladden,385 U.S.
363,366(1966)(defendant "was entitled to be tried by 12,not 9 or
even 10,impartial and unprejudiced jurors.").
Gorham has presented precedent, argument and facts showing at least
one juror was impartial explicitly or implicitly.
• Franklin v. Anderson,267 F.Supp.2d 768('S.D.0hio 2003):
''The Court directs that judgment be entered in favor of the Pet­
itioner and against Respondent on the Sixth Claim and the aspect
of his first claim predicated upon failure of appellate counsel
toraisethe bias juror issue during his direct appeal...The Pet­
itioner is entitled to a conditional writ of habeas corpus which
will result in his release from custody if he is not retried with­
in 180 days."
- Gorham has raised this cMim in both 11.07's, §2254 and COA. Fletcher
was ineffective, and admits he missed it because the lack of knowledge
of law. Gorham a layman revealed this to him and he will not admit
fault, takes no responsibility for Gorham's additional five years of
incarceration. Gorham is entitled to release.
• Green v. White,232 F.3d 671,677-78(9thCir.2000) "Concealment by
venireman during voir dire uncovered before jury deliberations in­
herently involves prejudicial misconduct which cannot be rebutted by
either the people or a review of the entire record because of its
subjective intangible and subliminal nature."
• U.S. v. Torres,128 F.3d 38(2ndCir.1997):
"Blackstone states,that exclusion of a prospective juror for implied
bias is appropriate when it is shown: that he is of kin to either
party within the ninth degree; that he has been an arbitrator on
either side; that he has an interest in the cause; that there is
an action pending between him and the party."
Gorham has submitted EX "FF" showing Achebe who was just arrested
for 1) Dirty U/A; 2) Failing to pay fines/fees; and 3) not reporting
ihcJanuary (a month before trial,3 months before being discharged off
probabtion SATISFACORY), Achebe had not even went to his hearing and
had 10 years hanging over his head. The exact and perfect case is
Brodks v. Dretke,418 F.3d 430 finding that the sum of all factual
circumstances surrounding this juror in particular the power of the Dis­
trict Attorney, and the timing and sequence of events that compelled
the conclusion of implied bias. Alexander3 even argues this during the
unnecessary "bias" evidentiary hearing, (see 3RR 26-28).
22.

• Neder v. United States,527 U.S.1,7(1999)(Stating that there is a
"limited class of fundamental constitutional errors that...are so intrin­
sically harmful as to require automatic reversal (i.eaffect substan­
tial rights') without regards to their effect on the outcome").
- Gorham should have been granted relief at appeal, then on 11.07, and
now the USDC and 5th Circuit say there is no constitutional violation.
It can't get any clearer, due to the nature of the charge, no one Court
will take the initiative to see the whole trial was tainted before it
even started. Gorham is innocent, was convicted by a tainted jury and
had ineffective assistance of counsel on appeal. This issue requires this
Court's attention.
III. THE FIFTH CIRCUIT ERRED IN ITS APPLICATION OF SLACK V.
MCDONALD WHEN IT DECLARED,"GORHAM HAS FAILED TO MAKE THE
REQUISITE SHOWING," THAT "JURISTS OF REASON WOULD FIND IT
DEBATABLE WHETHER THE PETITION STATES A VALID CLAIM OF THE
DENIAL OF A CONSTITUTIONAL RIGHT." THIS GORHAM HAS SHOWN
MANIFESTLY;THIS FACT WARRANTS THIS COURT'S ATTENTION.
This issue incorporates three claims of ineffective assistance of
trial counsel.
a) Garcia deliberately opened the door to inadmissible evidence from
the outcry witness Brandi Stockford, violating TRE 608(b),403 and 404
(a)-(b) violating Gorham's right to effective assistance of counsel.
Gorham cites Tex.R.Evid. 608:
Evidence of Character and Conduct of a Witness
(b) Specific Instances of Conduct
Specific instances of the conduct of a witness for the purpose
of attacking or supporting the witness' credibility other than
conviction of a crime as provided in Rule 609, may not*- be in­
quired into on cross-examination of the witness nor proved ex­
trinsic evidence.
Gorham recites what is said in Brown v. Dretke,419 F.3d 365,376 (5th
Cir.2005)"A Federal court may grant habeas relief based on an erroneous
state court evidentiary ruling only if the ruling violates a specific
federal constitutional right or is so egregious suchjthat it renders the
petitioner's trial fundamentally unfair." The State court said "...this
court finds that Applicant was not deprived of effective assistance of
trial counsel." (Sde FFCL May 26,2017 at 8).

23.

In Robertson v. State,187 S.W.3d 475(Tex.Grim.App.2006), the^CCA
agreed the applicant was entitled to relief due to IAC for opening the
door to inadmissible evidence. In Gorham's case it was critical to limit
evidence presented in front of the jury that had no probative value, only
a prejudicial effect.
Garcia, by opening the door allowed Alexander to question Stockford
about specific instances of misdonduct between Gorham and Stockford.
In doing so, Alexander elicited untrue, unproven accusation of domestic
violence, racially motivated discipline towards complainant, alcohol
abuse, all issues that were false, misleading and used to sympathize
with the jury, bolster this fabricated story and to discredit Gorham,
rendering him a bad guy in general.
Justice Keel states in her dissent (see Attachment A):
"Counsel also opened the door to testimony about Applicant's domes­
tic violence against the complainant's mother. The attorney claims
that he did so in order to reveal the mother's retaliatory motive
in fabricating allegations against Applicant. But the question that
opened the door - why didsshe call the police on a particular day did not reveal any such motive and caused the admission of damaging
evidence of domestic violence. . .Defense counsel performed defi­
ciently, and his explanations for his performance do not hold up to
scrutiny. We should file and set this cause for further evaluation.."
One 6£ the Judges from the Court of Criminal Appeals of Texas clearly
states "Defense counsel performed.*deficiently,..."
The testimony complained about above coupled with Gorham's inadmiss­
ible DWI convictions engraved in the jury's mind, "bad person," "bad
conduct" equals guilty can't be trusted. This was unreasonable, there
can be no, absolutely no strategy to leave this impression in the jurors
minds before deliberations. There is no factual evidence in the record
to substantiate the witness' testimony. And <being that Stockford is the
mother of the alleged victim, it was a free for all for her to make
Gorham look this way. This severly damaged Gorham's only defense, in
"credibility." Counsel's actions meet both prongs of Stickland, counsel
was ineffective.
b) Garcia was ineffective for eliciting inadmissible evidence from
expert witness to the truthfulness of the complainant in violation of
Tex.R.Evid 702. This violating his right to effective assistance of
counsel. Gorham states what the Tex.R.Evid. 702 says:

24.

Testimony by Experts
If scientific,technical,or other specialized knowledge will assist the
trier of fact to understand the evidence or to determine a fact in issue,
a witness qualified as an expert by knowledge,skill,experience,training
or education may testify thereto in the form of an opinion or otherwise.
Petitioner's Attorney elicits the following inadmissible evidence
from CPS Investigator Alexandria Lorn ("Lom")(4RR 125,9-13): Q. (by MR.
GARCIA) Are you telling this jury that when a child makes an automatic
outcry-makes an outcry that;;that child is telling-you1 re absolutely sure
that child is telling the truth? A. Yes.
The Fifth Circuit says in Viterbo v. Dow Chem.Co.,826 F.2d 420,424
(1987)”Without more than credentials and a subjective opinion, an ex­
pert's testimony that 'it is so' is not admissible3." Again citing the
Fifth Circuit in Poddy v. Oxy USA,Inc.,101 F.3d 448,459(1996) "Although
substantive aspects of the case are governed by Texas law, the Federal
Rules of Evidence control the admission of expert testimony3."
The 175th makes it perfectly clear as Gorham reiterates (see 4RR127):
THE COURT: This is the problem. That this agency cannot make that
assumption,all they do is take the information. They record. They
ask questions as they're supposed to. But for them to assume that
the child is telling the truth is not their responsibility. So I
don't know how you got that answer out of her, but that is erron­
eous3, in my opinion. I just have never3 heard that before. NeverJ.
(4RR128) THE COURT: And blare's the problem. That response should
never be asked during a trial3 A doctor can't say that, neither can
anyone else. . .
Garcia alleges his strategy is (See Trial Counsel's Affidavit)"The
strategy behind the question was to illuminate the fact that the wit­
ness's biased, preconceived notion of an outcry witness's credibility
rendered her unable to objectively evaluate the truthfulness of an
outcry statement."
This is a clear violation of Gorham's rightcto effective assistance
and due process. Gorham cites Sandoval v. State,409 S.W.3d 291(Tex.App.Austin 2013):
"[Ejxpert testimony that a particular witness is truthful is inad­
missible under Rule 702." Yount v. State,872 S.W.2d 706,711 (Tex.
Crim.App.1993). Thus, the state -may not elicit expert testimony that
a particular child is telling2;the truth, or that child complainants
as a class are worthy of belief. Pavlacka v. State,892 S.W.2d 897,
903 n. 6(Tex. Crim. App. ) ; Yount,872 S.W.2d at 711; C'f.Barshaw v. State,
320 S.W.3d 625,629-30(Tex.App.-Austin 2010),rev'd on other grounds,
342 S.W.3d 91(Tex.Crim.App.2011). Nor may an expert offer an opinion
on the truthfulness of a child3 complainant's allegations. Sohutz
25.

v. State,957 S.W.2d 52,59(Tex.Crim.App.1997). Such testimony "crosses the line" between evidence that will genuinely assist the jury
and that which usurps the jurys function to judge the credibility
of witnesses. Pavlacka,892 S.W.2d at 903 n.6; Yount,872 S.W.2d at
708. Instead the experts, it is jurors who must draw "conclusions
concerning the credibility of the parties in issue." Yount,872 S.W.
2d at 710;LSee Brooks v. State, 3232S.W. 3d 893,899(Tex.Cnm.App.2010)
("[T]he jury is the sole judge of the witnesses credibility and the
weight to be given their testimony.").
This issue was one of three that was remanded by the CCA and in her
dissent Justice Keel states:
"Counsel asked a CPS investigator whether she was "absolutely sure"
that children who outcry about abuse are telling the truth. Asked
by the trial judge about his basis for asking that question the
attorney answered that he had not yet "decided" if he had a strategy
for the question. If he was telling the truth at trial^and did not
have a strategy when he asked the question, then he was not truth­
ful at habeas when he claimed that he did have a strategy. If he did
have a strategy- to show bias on the aprt of the witness- the ques­
tion was unreasonable because the prosecution's case depended on the
complainant's credibility, and the answer buttressed her credibility
more than it demonstrated the witness's bias."
The Fifth Circuit says in Moore v. Johnson,194 F.3d 586,604(1999);
Proffit v. Waldron,831 F.2d 1245,1248(5thCir.1987)"...holding tactical
decisions that give no advantage to a defendant are not reasonable and
court will not engage^in presumption of reasonablemess under these
circumstances." This Court says in Kumho Tire Co., v. Carmichael, 526
U.S. 137(1992) "All expert testimony is filtered through Fed.R.Evid.
702 and 104(a)."
Garcia was ineffective,period, this was a persistant scheme not
strategy. Citing Lyons v. McCotter,770 F.2d 529(5thCir.1985):"...
passing over admission of prejudicial and arguably inadmissible evidence
may be a strategic decision by trial counsel, whilde passing over adrn
mission of prejudicial and clearly inadmissible evidnece has no stra­
tegic value and may constitute ineffective assistance of counsel."
c) Garcia failed to object to the use of inamissible previous con­
victions and unadjudicated crimes for impeachment during Gorham's crossexamination at guilt-innocence. Garcia purposely violated TRE 609(b)
and 404(b) in turn violating Gorham's Constitutional right to effective
assistance of counsel. Citing TRE 609(b):
Impeachment by Evidence of a Criminal Conviction
(b) Limit on Using the Evidence After 10 Years.
26.

\

This subdivision (b) applies if more than 10 years have passed since
the witness's conviction or release from confinement for it,whichever
is later. Evidence of the conviction is admissible only if its probative
valuer supported by specific facts and circumstances, substantially
outweighs its prejudicial effect.
As stated in the Statement of the Case, Alexander on cross impeached
Gorham with threeaprevious DWI convictions from Nevada ('98,'01&'04).
All irrelevant to the charge, all over 10 years old. Garcia never once
objected. In fact this is his response (see Trial Counsel's Affidavit):
"Both Applicant and counsel agredd that the defendant's alcohol de­
pendency and subsequent rehabilitation efforts would be relevant to
Applicants defense. On the one hand, Defendant's admission of al­
cohol abuse would serve to neutralize damaging testimony elicited
from.the complainant's mother. Secondly, in the event of a guilty
verdict, Defendant's voluntary admission of alcohol dependency and
subsequent participation in a rehabilitation program could serve to
mitigate punishment. Therefore, it was agreed that the defense would
not object to any reference to Defendants alcohol related incidents."
This is absolutely false and perjured as Gorham was never made privy
to any defensive strategies. Gorham cites Meadows v. State,455 S.W.3d
166(Tex.Crim.App.2015) "609(b) supercedes 609(a) and it's inadmissible
to bring up convictions over 10 years old and non moral turpitude to
impeach a witness." Justice Keel, in her dissent states:
"Another justification for opening the door to the DWI evidence was
that Applicant's 'alcohol dependency and subsequent rehabilitation
efforts would be relevant to Applicant's defenses.' Applicant's
only3 defense was that he did not commit the crime. His history of
alcohol dependency was not relevant3 to that defense. Nor did it3
'neutralize' damaging testimony given by the complainant's mother.
Instead, the DWI evidence confirmed3 her testimony that Applicant
was a drunken lout."
Garcia filed a motion in limine to prevent the use of said previous
convitions and failed to get a ruling on said motion. It gets worse as
Garcia let's Alexander keep going (5RR 46,15-18): Q: And you're even
currently under indictment for operating a motot vehicle while intox­
icated within our jurisdiction aren't you? A: Correct. The Court would
have abused her discretion should Garcia have objected. See Ex parte
Menchaca,854 S.W.2d 128(Tex.Crim.App.1993)"To pass over the admission
of prejudicial and arguably inadmissible evidence may be strategic; to
pass over the admission of prejudicial and clearly inadmissible evidence,
as here, has no strategic value."

27.

Justice Keel wasn't finished and continued in her dissent:
"For example during the guilt phase of trial defense counsel opened
the door to Applicant's history of DWI convictions. At habeas he
justified having done so because of the potential mitigation value
of that history. It is doubtful that the evidence had any mitigation
value, but even if it did, its admission at guilt was premature.
More importantly, however, the trial court assessed punishment, so
any mitigation value could not justify admitting this evidence before
the jury."
The record is clear, counsel did absolutely nothing to help his client.
Garcia let the State sabotage his client, Gorham believing this to be
true as his fees were yet to be paid in full. As well as Garcia never
had a strategy and it was him who "accidently" opened the door to Gorham's
history of DWI convicitons. Gorham plead not guilty, because he is,
credibility has everything to do With this kind of case and Garcia let
Alexander crush any Gorham had. Garcia is ineffective and this is a valid
constitutional claim.
IV. THE DECISION OF THE FIFTH CIRCUIT IS IN
CONFLICT WITH DECISIONS OF OTHER CIRCUITS.
• U.S. v. Binder,769 F.2d 595,602(9thCir.1985)(state's expert witnesses
improperly bolstered child complainant's testimony by testifying that
the children could distinguish reality from fantasy and truth from
falsehood).
• U.S. v. Scop,856 F.2d 5(2ndCir.1988) "Even expert witnesses possessed
of medical knowledge and skills that relate directly to credibility
may not state an opinion as to whether another witness is credible."
V. THE FIFTH CIRCUIT ERRED IN ITS APPLICATION OF SLACK V.
MCDONALD WHEN IT DECLARED,"GORHAM HAS FAILED TO MAKE THE
REQUISITE SHOWING," THAT "JURISTS OF REASON WOULD FIND IT
DEBATABLE WHETHER THE DISTRICT COURT WAS CORRECT IN ITS
PROCEDURAL RULING." THIS GORHAM HAS SHOWN MANIFESTLY:
THIS FACT WARRANTS THIS COURT'S ATTENTION.
The Fifth Circuit's opinion misapplied Slack v. McDonald,529 U.S.
473,484(2000). The Court says "Gorham has failed to make the requisite
showing." The Court is saying the USDC's procedural ruling is correct
and Gorham is time barred. Gorham strongly disagrees and will show this
Court that a structural Constitutional error should trump a clerical
procedural error due to its ambiguity.
The determination of whether a state procedural rule is "adequate"
is a question of federal law. Lee v. Kemna,534 U.S.362,375(2002)("[T]he
adequacy of state procedural bars to the assertion of federal questions;"
28.

we have recognized,is not within the State's prerogative decide;rather,
aedquacy "is itself a federal question"(quoting Douglai v. State of Ala.,
380 U.S.415,422(1965)).
The state procedural rule must have been sufficiently clear at the
time of the default to have put the petitioner on notice of what conduct
was required. Where thereais reason for confusion or uncertainty with
respect to state procedures, a procedural default may be inadequate to
bar federal habes review. See,e.g., Ford v. Georgia,498 U.S.411(1991)
(State procedural rule is so novel that prisoner "could not be deemed
to have been apprised of its existence"); James v. Kentucky,466 U.S.341,
(1984)(rule "not always clear or closely hewn to.").
Gorham's COA proved, jurists of reason would find it debatable whe­
ther the district court was correct in its procedural ruling. The rules
are ambiguous, and the USDC and Fifth Circuit failed to apply the 'Liberal
Construction Doctrine' set out in Haines v. Kerner,404 U.S.519,520(1972);
Hernandez v. Thaler,630 F.3d 420,426-27(5thCir.2011).
Gorham clearly has valid constitutional violations as presented in
the aforementioned grounds. It is apparent that the 'rules' only apply
to Gorham,! but not the Court's themselves.
A brief summary of pertinent dates:
• Feb.11,2016 Motion to rehear direct appeal denied
• Oct.30,2016 Original 'properly filed' 11.07 submitted (lOgrounds)
• Nov.15,2016 State's general denial
• Nov.17,2016 Motion to Recuse Hon Roman submitted
• Nov.30,2016 Motion to Recuse DENIED (unavailable option)
• Feb.21,2017 "Supplemental Ground 11" submitted
• Mar.1,2017 175th recommends 'Denial' in her FFCL
(175th does recommend 'dismissal' but is not specific as to, why.)
•MMay 3,2017 CCA "dismissed your application for writ of habeas corpus
without written order for non-compliance with Texas Rules of App­
ellate Procedure 73.1. Specifically3, applicant's supplemental3
ground eleven is not set outcon the prescribed form.
• May 9,2017 Gorham received notification of 'dismissal.'
• May 17,2017 Gorham resubmits exact same grounds,not seperately
• May 26,2017 175th recommends Denial
•Aug.23,2017 CCA remands back to 175th (3 unresolved issues)
• Nov.21,2017 175th recommends Denial
• April8,2018 CCA remands back to 175th
29.

• July 2018 175th recommends Denial
• June 5,2019 CCA denies without written order
The issue, Gorham failed to put a supplemental ground on a complete
application and submit it in it's entirety. Nowhere in the Tex.R.App.
Proc;Tex.R.Evid.,nor;the CCA's Application (dated 01/14/14) does it give
a procedure on 'how to' file a supplemental or amended ground,nowhere.
But this is what it does say, Tex.R.App.Proc.73.1(c) in pertinent "any
ground3not raised on the form will not be considered." Meaning Gorham's
"Supplemental Ground Eleven" shouldcihave never been considered, similar
to his "supplemental Ground Twelve" that went unheard, unconsidered.
The 11.07 form application also makes this clear, "if your grounds
and brief summary of the facts have not been presented on the form app­
lication ,ithe Court will not consider your grounds." Gorham interprets
this to mean, since there are no rules on how to file a Supplemental
or Amended ground, if the ground is not on the form the CCA will not
review ("consider") it. Gorham is a 1.layman, not a rule writer nor is
he trained to interpret the rules.
In a federal §2254 it is said, if a petition appears to comply with
the formal requirements of Rules 2 and 3 and the model form, the clerk
must file the petition [Rules Governing §2254 Rule 3(b)]. However, if
the petition does not appear to "substantially comply" with the rules,
the clerk may promptly present it to a district jduge who may authorize
the clerk to "return" the petition to the petitioner along with a state­
ment for reasons for its return [Rule 2(e)-clerk retains copy of pet­
ition].
The use of the term "return" in the rule rather than "dismissal,"
along with the requirement that the clerk keep a copy of the petition,
suggests that the court may retain jurisdiction over the case while the
petition is returned for correction or amendment. If so, this jurisdic!.In general, the "substantial compliance" language of Rule 2(e) has
not been applied with rigid formalism, particularly with petitions filed
by pro se petitioners,Wilson v. Foti,832 F.2d 891,892(5thCir.1987)
petition improperly filed under 42 U.S.C.§1983 treated as habeas peti­
tion; Johnson v. Onion,761 F.2d 224,225(5thCir.1985). Greater tolerance
for vague and conclusory claims is exercised concerning petitions draf­
ted by pro se litigants than would be the case with represented petition­
ers ; (Guihxozv^Lynaugh, 852 F.2d 832,834(5thCir.1988).
30.

Gorham's freedom rests on his assumed understanding on how to 'pro­
perly file' a Supplemental Ground Eleven? This Court in Mullaney v.
Wilbur,421 U.S.684,691 n.ll(1975)"On rare occasions the Court ;<hassreexamined a state-court interpretation of state law when it appears to
be an obvious subterfuge to evade consideration of a federal issue."
This is all to clear, the State assumed Gorham understood to add a supp­
lemental ground you must file an entire application with the ground.
Why wouldn't the clerk send it back or just discard it like they did
with Gorham's Supplemental Ground Twelve?
From the original 'properly filed' application to the submission
of Supplemental Ground Eleven was 144 days of tolled time. Gorham did
not flagrantly violate the Rules, procedures or instructions. Gorham
will point thisCourt to the differences in the application that was
used (EX "El-E2'?)and the revised version (EX"F1-F3"). Gorham respect­
fully requests this Honorable Court to take judicial notice of these
five pages and notice on EX F-l this is the distinct difference, in
pertinent:
INSTRUCTIONS
1. All applicants and petitioners, including attorneys,must use the
complete application form. You must use this application form, which
begins on the page following these instructions, to file an appli­
cation, or an amended or supplemental application^for a writ. . .
2. Failure to follow these instructions may cause your entire app­
lication to be dismissed.
And to emphasize Gorham's interpretation of instruction #12 "Warning:
If the application form does not include all of the grounds for relief,
additional ground's’3brought at a later date may be procedurally barred...
(see EX"F-3"). This means the additional grounds (supp.grnd.il) are
procedurally barred, not the entire application.
in Jones v. Stephens,541 Fed.Appx.499(5thGir72013): "Jones admits
he failed to follow the instructions on the form adding additional gr­
ounds by inserting four pages into the 11.07 not using additional page
10 to add additional grounds. Jones' 11.07 was not 'properly filed.'
Gorham was nowhere close, even if it was the CCA specifically stated
Supplemental Ground Eleven...
The CCA states "...not set out on the prescribed form." While this
is unequivocally true for the initial application. Gorham avers there
are no firmly established rules governing the "form" for grounds sub31.

mitted as a supplement to an application which has not yet been ruled
on. Gorham has read hundreds of cases and has yet to come across one
even remotely close to his. Gorham believes this issue, his issue, is
the first of it's kind.
There is no precedent regarding supplemental grounds. Gorham concludes
this violation is not3 'firmly established' and believes the citing in
Forgy v. Norris,64 F.3d 399,402(8th Cir.1995) applies to his conclusion,
"...procedural rule first anounced in petitioner's case did not bar
federal review as "unexpected state procedural bars are not adequate
to foreclose federal review of constitutional claims")."
Likewise, state procedural rules applied to novel circumstances not
previously faced by the state courts are not sufficiently established
to bar federal review on the merits. Gorham is entitled to relief. Gorham
references Del Vecchio v. Illinois Dept.of Corr.,31 F.3d 1363,1381(7th
Cir.1994) "...procedural rule inadequate where state court had "never
[previously]faced the question' and its resolution in petitioner's case
was "novel")." Gorham falls under Forgy and Del Vecchio.
This Court in Dugger v. Adams,489 U.S.401,410 n.6(1989)"It is not
necessary that the state courts apply the particular procedural bar in
every applicable case. It is sufficient that the rule is applied evenhandedly "in the vast majority of cases. It I! This is where the subterfuge
is most prevalent as the CCA only refers to the second part not address­
ing the lack of Supplemental instructions, only the form wasn't used.
As far as 'properly filed, Gorham is entitled to statutory, equitable or gap' tolling. In Larry v. Dretke,361 F.3d 890(5thCir.2004)
Larry contends that because the state trial court issued findings of
fact and denied his habeas petition on the merits his application was
"accorded some level of judicial review" making it "properly filed"
under the precedent of this Court. See Villegas v. Johnson,184 F.3d
467,470 n.2(5thCir.1999).Id at 895. Thqal75th answered3 'Supplemental
Ground Eleven," this is some level of judicial review.
The Bexar County District Clerk file stamped Gorham's 11.07 on Oct.
30,2016. The State made their 'general denial' on November 15,2016.
This Court in Artuz v. Bennett,531 U.S.4(2000): states in relevant part:
"An application is "filed" as that term is commonly understood, when
it is delivered to and accepted by,thguappropriate court officer
for placement into the official record, see,e.g.,United States v.
Lombardo,241 U.S.73,76(1916)("A paper isofiled when it is delivered
32.

to the proper official and by him received and filed");Black's Law
Dictionary (7th Ed.1999)(defining "file" as "[t]o deliver a legal
document to the court clerk or record custodian for placement into
the official record."). And an Application is "properly filed" when
its delivery and acceptance are in compliance with the applicable
laws and rules governing filings. These usually prescribe, for ex­
ample, the form of the document, the time limits upon its delivery,
the court^and office in which it must be lodged, and the requisite
filing fee. See,e.g.,Habteselaisse v. Novak,209 F.3d 1208,1210-1211
(CA10 2000);199 F.3d at 121 (case below); Villegas v. Johnson, 184
F.3d 467,469-470."
Gorham properly filed his 11.07 in Bexar County on October 30,2016.
An 11.07 number was assigned, different from his Trial Court Number in
2012-CR-10383-W1. The trial court ordered issues designated. Gorham's
time should have been tolled at a minimum of 144 days, Had it, Gorham
would still have ample time to file and not be allegedly 'barred.''
Gorham was diligent in this complex game of chance. Gorham has a
very out dated law library, no use of any type of internet to do any
type of research. What the Courts don't understand is an unexperienced
layman doesn't just go right into the law library and figure out what
to do in one or two months. Gorham is pro se, there are no Lawyers,
paralegals, law clerk's atc.his unit.
Gorham citing Balisteri v. Pacifica Police Dept.,901 F.2d 696,699
(9th Cir.1988) "this Court recognizes that it has a duty to ensure that
pro se litigants do not lose their right to a hearing on the merits of
their claim due to ignorance of technical procedural requirements."
Gorham has proved that he is not time-barred, and proved his claims
are of constitutional magnitude. Gorham is entitled to relief by way
of new trial within 60 days, and jeopardy attached as the panel was sworn
and impaneled.
VI. THE DECISION OF THE FIFTH CIRCUIT IS IN
CONFLICT WITH THE DECISIONS OF OTHER CIRCUITS.
• Lopez v. Schiro,491 F.3d 1029,1043(9thCir.2007):
"Courts have recognized an exception to the general rule of declin­
ing to review the correctness of a State court's application of a
procedural bar in cases where the state court's interpretation is
"clearly untenable and amounts to a subterfuge to avoid federal re­
view of a deprivation by the state of rights guaranteed by the Con­
stitution. "
- Thecl75th and CCA were well aware of the Constitutional violations
and saw an easy way out, dismiss Gorham and he'll be time-barred. Then
deny without written order his next 11.07. This is subterfuge.
33.

• Brackens v. Davis,2018 U.S.Dist.LX 161271: Dismissed specifically
for exceeding two pages allowed for each ground.
- Gorham uses this in apposite as this is in the initial application
and is clearly stated in the rules and instructions.
• Wood v. Hall,130 F.3d 373,377(9thCir.1997):
"State rules that are inconsistantlyuor arbitrarily applied to bar
federal review generally fall into two categories:(1) rules that have
been selectively applied to bar the claims of certain litigants; or
(2) rules that are so unsettled due to ambiguous or changing state
authority that applying them to bar a litigants' claim would be un­
fair.
- Gorham claims his issue fits both categories.
• Prihoda v. McCaughtry,910 F.2d 1379,1383(7th Cir.1990) "A basis of
decision applied infrequently,unexpectedly, or freakishly may be in­
adequate, for the lack of notice and consistency may show that the state
is discriminating against the federal rights asserted."
- Gorham is claiming the same discrimination.
• Brown v. Lee,319 F.3d 162,174(4thCir.2003)"procedural bar not regu­
larly applied where state court failed to impose the bar in five out
of nine cases."
- Gorham cannot find just one case on point.
) Banjo v. Ayers,614 F.3d 964,968(9thCir.2010)"There is no tolling for
the gap or interval period between sets of state habeas petitions where
the latter petition constitutes a "new round" of collateral review."
- Gorham filed the exact same grounds, it wasn't a "new round."
• King v. Roe,340 F.3d 821,823(9th Cir.2003):'
"However, if the second petition is merely limited to an elaboration
of the facts relating to the claims in the former petition, the pet­
itioner is entitled3 to gap tolling for the period between the pet­
itions. Thus, IT EKe second petition was an attempt by the petitioner
to correct deficiencies3 in the first petition, the petitioner is
still making a proper use of state court procedures."
- Gorham is entitled to gap tolling as his second 11.07 only corrected
the deficiency stated in the CCA's Dismissal. Nothing new.
Certiorari should be granted to correct this error.

34.

CONCLUSION
For these reasons, a Writ of Certiorari should issue to review the
judgment and opinion of the Fifth Circuit Court of Appeals.
Respectfully submitted,

Brian Keith Gorham #01998550
Eastham Unit
2665 Prison Rd 1
Lovelady, Texas 75851
CERTIFICATE OF SERVICE
The undersigned is an inmate at the TDCJ-CID EASTHAM Unit in Houston
County, Texas. Gorham is indigent and is mailing, postage prepaid to
The Supreme Court of the United States of America, Washington, D.C.
20543.
day of May, 2021.
Executed on this the

Brian Keith Gorham
DECLARATION
I, Brian Keith Gorham, certify, verify and state under Penalty of
Perjury that the foregoing is true and correct pursuant to 28 U.S.C.
§1746.
Executed on this the
day of May, 2021.

2-1

Brian Keith Gorham

35.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

(}y\A~A*~ I.Ain ha'**—
Date:

m

-I

